                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

    o                                        CLOSEOUT MEMORANDUM
                                              --




 Case Number: I05090053                                                          11          Page 1 of 1



         This investigation was preceded by two previous investigative cases' which were subsequently
         closed with the university's2 admitting that it had improperly used participant support funds3 and
         returned these funds to NSF. Our investigation focused on four university awards4 which we
         analyzed for compliance in the use of participant support funds. As a result of our investigation,
         the university put funds5 to better use.6

         Although we did not note any indications of fraud or criminal wrongdoing, we did determine that
         the university is unable to properly track participant support.

          Consequently, we referred this matter to OIG's Office of Audits for its consideration.

         Accordingly, this case is closed.




          1
              XXXXXXXXXX
              xxXXXXXXXX
         '    XXXXXXXXXX
              xxxXXXXXXX
              xxxXXXXXXX
              xxXXXXXXXX



                                                                                                       -.
NSF OIG Form 2 (1 1/02)
